wr

2311 Douglas Street A E

 

. E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga l B tu e fs contact@cocklelegalbriefs.com
St. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-274
TERESA BUCHANAN,
Petitioner,
Vv.

F. KING ALEXANDER, DAMON ANDREW,
A.G. MONACO, AND GASTON REINOSO,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE AMICUS CURIAE BRIEF AND BRIEF OF THE NATIONAL COALITION AGAINST
CENSORSHIP, THE WOODHULL FREEDOM FOUNDATION, THE DKT LIBERTY
PROJECT, PROFESSOR RICHARD FOSSEY, & PROFESSOR DAVID BLOOMFIELD AS
AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 2688 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . LG Qudraw- ,
My Commission Expires Nov 24, 2020

Notary Public Affiant

 

38743
